NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

Electronically Filed
Intermediate Court of Appeals
CAAP-16-0000679
30-NOV-2018
01:11PM

NOS. CAAP-16-0000679 AND CAAP-16-0000782
IN THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAI' I
CAAP-16-0000679

BENJAMIN PAUL KEKONA and TAMAE M. KEKONA,
Plaintiffs/Counterclaim-Defenqants/Appellees,

v.
PAZ F. ABASTILLAS, also known as PAZ A. RICHTER,
ROBERT A. SMITH, personally,
Defendants/Counterclaim-Plaintiffs/Appellees,
and
ROBERT A. SMITH, Attorney at Law, A Law Corporation,
STANDARD MANAGEMENT, INC., U.S. BANCORP MORTGAGE
COMPANY, an Oregon Company, WESTERN SURETY
COMPANY, Sued herein as Doe Entity 1,
Defendants-Appellees,
and
MICHAEL BORNEMANN, M.D., Defendant-Appellant,
and
JOHN DOES 1-10; JANE DOES 1-10; DOE CORPORATIONS
1-10; DOE ENTITIES 1-10, Defendants
APPEAL FROM THE CIRCUIT COURT OF THE FIRST CIRCUIT
(CIVIL NO. 93-3974-10)
CAAP-16-0000782

BENJAMIN PAUL KEKONA and TAMAE M. KEKONA,
Plaintiffs/Counterclaim-Defendants/Appellees,
v.
PAZ F .. ABASTILLAS, also known as PAZ A. RICHTER,
ROBERT A. SMITH, personally,
Defendants/Counterclaim-Plaintiffs/Appellants,
and
ROBERT A. SMITH, Attorney at Law, A Law Corporation,
STANDARD MANAGEMENT, INC., MICHAEL BORNEMANN, M.D.,
U.S. BANCORP MORTGAGE COMPANY, an Oregon Company,

EXHIBITB

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

WESTERN SURETY COMPANY, Sued herein as Doe
Entity 1, Defendants-Appellees,
and
JOHN DOES 1-10; JANE DOES 1-10; DOE CORPORATIONS.
1-10; DOE ENTITIES 1-10, Defendants
APPEAL FROM THE CIRCUIT COURT OF THE FIRST CIRCUIT
(CIVIL NO. 93-3974-10)

(By:

MEMORANDUM OPINION
Ginoza, Chief Judge, Leonard and Reifurth, JJ.)

The litigation between the parties in these
consolidated appeals has an extensive history. This lawsuit was
brought in 1993 by Plaintiffs-Appellees Benjamin Paul Kekona and
Tamae M. Kekona (collectively the Kekonas) 1 against
Defendants-Appellants Paz F. Abastillas (Abastillas), Robert A.
Smith (Smith) and Michael Bornemann (Bornemann), among others.
The Kekonas' claims in this case relate to conduct by the
defendants which prevented the Kekonas from obtaining recovery
awarded to them in a prior lawsuit.
In the prior lawsuit, Standard Management, Inc. (SMI),
a company run by Abastillas, filed suit against the Kekonas based
on a partnership and business dispute related to operating a tram
at Hanauma Bay (Hanauma Bay lawsuit). See Standard Mgmt., Inc.
v. Kekona, 99 Hawai'i 125, 53 P.3d 264 (2001). ·In that suit, the
Kekonas counterclaimed and also brought third-party claims
against Abastillas and Smith. In May of 1993, a jury verdict was
entered in favor of the Kekonas and against SMI, Abastillas and
Smith, which included awards of specified damages. Within days
of the Hanauma Bay lawsuit verdict: Abastillas transferred to
Bornemann her interest in an apartment unit located on Nu'uanu
Avenue (Nu'uanu property); and Abastillas and Smith transferred
to Bornemann their primary residence, located in Kane'ohe ·
(Kane'ohe property) .

Plaintiff Benjamin Pa~l Kekona passed away during the course of this
lawsuit. The case has continued with Plaintiff Tarnae M. Kekona, individually
and as personal representative for the Estate of Benjamin Paul Kekona.
1

2

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

In October of 1993, the Kekonas initiated the instant
lawsuit alleging causes of action for: Fraudulent Conveyances to
Avoid Rightful Creditors (Count One); Hawaii RICO violations
(Count Two); Conspiracy to Commit Fraudulent Conveyances (Count
Three); and Illegal Notary (Count Four). This lawsuit alone has
generated three separate trials and two prior sets of appeals.
See Kekona v. Abastillas, No. 24051, 2006 WL 1562086 {Hawai'i
App. Jun. 8, 2006) (Mem. Op.) ((Kekona I), vacated in part by
Kekona v. Abastillas, 113 Hawai'i 174, 150 P.3d 823 (2006)
(Kekona II); Kekona v. Bornemann, 130 Hawai'i 58, 305 P.3d 474,
(App. 2013) (Kekona III), vacated in part by Kekona v. Bornemann,
135 Hawai'i 254, 349 P.3d 361 {2015) (Kekona IV).
The current appeals by Bornemann in CAAP-16-0000679 and
by Abastillas and Smith in CAAP-16-0000782, respectively, seek to
contest the "Consolidated Third Amended Revised Final Judgment"
filed on September 19, 2016 (9/19/16 Consolidated Judgment), by
the Circuit Court of the First Circuit (circuit court) 2 in favor
of the Kekonas.
In CAAP-16-0000679, Bornemann appeals from the 9/19/16
Consolidated Judgment and also challenges the following orders
entered during the most recent remand to the circuit court: an
"Order Granting in Part Plaintiffs' Motion to Amend Three Orders
to Pay Over, and for Other and Further Relief," filed February 1,
2016; and an "Order Denying [Bornemann] 's Motion to Vacate
Judgment Entered on February 5, 2008 or Any Judgment Entered on
Remand, and to Dismiss this Case in its Entirety," filed on
October s·, 2015. Bornemann asserts the 9/19/16 Consolidated
Judgment should be vacated: (1) because a 1994 judgment in the
Hanauma Bay lawsuit expired qn September 2, 2014, pursuant to

2

The Honorable Rhonda A. Nishimura entered the 9/19/16 Consolidated

Judgment.
3

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

Hawaii Revised Statutes (HRS) § 657-5 (1993; Supp. 2001}, 3 and
thus can no longer support the judgments in the instant case; (2}
the Circuit Court erred by canceling deeds and returning the
Kane'ohe property to Abastillas and Smith without affording
Bornemann credit for equity; and (3) the circuit court erred by
awarding both post-judgment statutory interest and punitive
damages against Bornemann where the punitive damages award
already reflected punishment for delayed payment to the Kekonas.
In CAAP-16-0000782, Abastillas and Smith appeal from
the 9/19/16 Consolidated Judgment and also challenge an ''Order
Denying Motion of Defendants [Abastillas] and [Smith] to Vacate
Judge Marks' Amended Revised Judgment Filed February 26, 2001,
and Dismiss This Case in Its Entirety with Prejudice Because Both
the Hanauma Bay Judgment and Judge Marks' Judgment in This Case
Have Expired (Filed June 24, 2015)" entered on October 8, 2015.
Abastillas and Smith contend the circuit court erred: (1) by
applying Estate of Roxas v. Marcos, 121 Hawai'i 59, 214 P.3d 598
(2009} retroactively to judgments in the Hanauma Bay lawsuit and
the instant case; (2} because the 1994 judgment in the Hanauma
Bay lawsuit expired pursuant to HRS § 657-5, and thus the
fraudulent transfer claim also expired; (3) in determining

3

HRS

§

657-5 (1993) provides:

§657-5 Domestic judgments and decrees. Unless an
extension is granted, every judgment and decree of any court
of the State shall be presumed to be paid and discharged at
the expiration of ten years after the judgment or decree was
rendered. No action shall be commenced-after the expiration
of ten years from the date a judgment or decree was rendered
or extended. No extension of a judgment or decree shall be
granted unless the extension is sought within ten years of
the date the original judgement or decree was rendered. A
court shall not extend any judgment or decree beyond twenty
years from the date of the original judgment or· decree. No
extension shall be granted without notice and a hearing.

HRS § 657-5 was amended in 2001 and amended the last sentence to
read, "[n]o extension shall be granted without notice and the filing of a nonhearing motion or a hearing motion to extend the life of the judgment or
decree." HRS § 657-5 (Supp. 2001). This amendment is non-material for the
purposes of analyzing the instant case.

4

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

Abastillas and Smith had unduly delayed and thus denying a motion
tG vacate certain judgments; and (4) in denying their request to
make an oral motion under Hawai'i Rules of Civil Procedure (HRCP)
Rule 7(b) (1) 4 at a proceeding on September 29, 2015.
For the reasons discussed below, we vacate the 9/19/16
Judgment only with respect to the canceling and voiding of deeds
related to the Kane'ohe property. Otherwise, we affirm.
I .

Background
A.

Hanauma Bay Lawsuit

The Kekonas met Abastillas and Smith in the late 1980s.
Standard Mgmt., 99 Hawai'i at 127, 53 P.3d at 266. Abastillas,
Smith, and the Kekonas entered into an agreement wherein the
Kekonas would serve as passive investors in a partnership
operating a tram at Hanauma Bay. Id. In 1989, SMI filed the
Hanauma Bay lawsuit against the Kekonas alleging unlawful ouster
from the Hanauma Bay partnership. Id. The Kekonas
counterclaimed against SMI for breach of contract. Id. The
Kekonas also filed a third-party complaint against Abastillas and
Smith, alleging, inter alia, that the Kekonas were fraudulently
induced into the partnership by Abastillas' and Smith's
intentional misrepresentations. Id.
In May of 1993, a jury rendered a special verdict in
favor of the Kekonas on the complaint, the counterclaim, and the
third-party complaint. 5 Id. The jury awarded the Kekonas: (1)
$152,500 against SMI (consisting of special damages, general

HRCP Rule 7(b) (1) provides:
(b) Motions and other papers.

(1) An application to the court for an order shall be
by motion which, unless made during a hearing or trial,
shall be made in writing, shall state with particularity the
grounds therefor, and shall set forth the relief or order
sought. The requirement of writing is fulfilled if the
motion is stated in a written notice of the hearing of the
motion.
The Honorable James R. Aiona, Jr. presided.

5

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

damages, and attorneys' fees); (2) $200,000 in general damages,
$25,000 in punitive damages, and $56,250 in attorneys' fees
against Abastillas; and (3) $270,000 in general damages against
Smith. Id. On September 2, 1994, a Revised Judgment (1994
Hanauma Bay Judgment) was filed, which entered judgment for the
Kekonas pursuant to the jury award and also for costs of
$8,128.27.
On November 25, 1997, this court (ICA) issued a
decision affirming the awards of $152,500 in general damages and
attorneys' fees against SMI and the $25,000 in punitive damages
against Abastillas. Id. at 128, 53 P.3d at 267. However, this
court remanded for a new trial on the issue of general damages
against Abastillas for fraud and on the negligence claim against
Smith. I d.
During remand, the parties engaged in various efforts
to settle and then engaged in further litigation. Id. at 128-30,
53 P.3d at 267-69. Subsequently, the circuit court entered a
"Final Judgment on Remand as to All Claims and All Parties" (1999
Hanauma Bay Judgment)_. 6 Id. at 130, 53 P.3d at 269.
On February
28, 2001, this court affirmed the 1999 Hanauma Bay Judgment and
an underlying amended stipulation. 7 Id. at 138, 53 P.3d at 277.
Ultimately, the amount due to the Kekonas based on
judgments in the Hanauma Bay lawsuit amounted to $191,628.27.
See Kekona I at *1.
B.

The Instant Lawsuit

The Kekonas filed this lawsuit on October 13, 1993,
about four and a half months after the jury verdict in the
Hanauma Bay lawsuit on May 25, 1993, and after the Nu'uanu and

6

The Honorable Marie N. Milks presided.

7

The ICA opinion appears to mistakenly refer to the 1999 judgment as
"the March 18, 1999 final judgment and its underlying amended stipulation."
Standard Mgmt;, 99 Hawai'i at 138, 53 P.3d at 277. It appears this reference
should refer to the August 17, 1999 final judgment and its underlying amended
stipulation.

6

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER

Kane'ohe properties had been transferred to Bornemann.
IV, 135 Hawai'i at 258, 349 P.3d at 365.
1.

Kekona

First Two Trials and First Round of Appeals

In 1999, the first jury in this lawsuit awarded the
Kekonas extensive damages against SMI, Abastillas, Smith and
Bornemann on a variety of counts, including $250,000 in punitive
damages against each of the defendants. Id. at 259, 349 P.3d at
366. However, the circuit court found that the punitive damages
award against Bornemann was excessive and ordered a new trial as
to Bornemann unless the Kekonas consented to reduce that award to
$75,000. Id. The Kekonas opted for a new trial. Id.
The second jury awarded the Kekonas $594,000 in
punitive damages against Bornemann. Id. The circuit court
entered an "Amended Final Revised Judgment" on February 26, 2001
{2001 Judgment), which .awarded the Kekonas specified amounts
consistent with the first jury trial, except for the revised
amount of $594,000 in punitive damages against Bornemann. 8
Abastillas, ·smith, SMI, and Bornemman, among others, appealed
from the 2001 Judgment. See Kekona I at *1.
On June 8, 2006, in Kekona I, the ICA issued a
memorandum opinion affirming most of the 2001 Judgment. Id.
However, the ICA vacated: (1) a $100,000 general damages award
against inter alia, Abastillas, Smith, and Bornemann for their
conspiracy to fraudulently transfer the Kane'ohe property and (2}
a $100,000 award of general damages against Abastillas, Smith,
and Bornemann for their conspiracy to fraudulently transfer the
Nu'uanu property. Id. at *28.
Smith and Abastillas filed an application for writ of
certiorari, which was rejected by the Hawai'i Supreme Court.
Kekona II, 113 Hawaii at 183 n.10,. 150 P.3d at 832 n.10.
Separately, Borne~ann filed an application for writ of

8

The specific amounts awarded in the 2001 Judgment are detailed in
Kekona I at *7 n.5.
7

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

certiorari, which was granted by the Hawai'i Supreme Court. Id.
At 175, 150 P.3d at 824.
Bornemann argued to the supreme court, inter alia, that
the ICA erred by holding that a fraudulent transfer need only be
proved by preponderance of the evidence, rather than by clear and
convincing evidence. Kekona II, 113 Hawai'i at 180, 150 P.3d at
829. The supreme court agreed with Bornemann and remanded the
case to the circuit court as to Bornemann, as follows:
We therefore remand the case to the circuit court for a new
trial as to (a) whether the Kekonas can demonstrate that the
transfers were fraudulent by "clear and convincing
evidence," (b) whether the Kekonas can demonstrate, by
"clear and convincing evidence," that Bornemann conspired to
fraudulently transfer the Kaneohe and [Nuuanu] properties,
and (c) the appropriate remedies to be assessed against
Bornemann, if any.

Id. at 183, 150 P.3d at 832.

Of further note, the supreme court

explained as to Abastillas and Smith:
We reiterate the point that·Abastillas and Smith failed to
present any meritorious argument in their applications for
writs of certiorari. Notably, neither Abastillas nor Smith
raised the insufficient standard of proof issue in their
applications to this court. It is fundamental that
"[q)uestions not presented . . . will be disregarded."
Hawai'i Rules of Appellate Procedure (HRAP) Rule 40.1(d) (1).
We do not perceive the requisite prejudice warranting a
plain error analysis. See HRAP Rule 40.l(d)(l) ("The
supreme court, at its option, may notice a plain error not·
presented."). Accordingly, the ICA's opinion and the
circuit court's February 26, 2001 "Amended Revised Final
Judgment" are affimed as to them.

Id. at 183 n.lO, 150 P.3d at 832 n.10 (emphasis added).
2.

Third Trial as to Bornemann and Second Round of
Appeals

On remand to the circuit court as to Bornemann, a third
jury trial was held. 9 In a jury verdict entered on January 3,
2008, the jury found by clear and convincing evidence that the
Kane'ohe property was fraudulently transferred, but not the
Nu'uanu property. The jury awarded the Kekonas $253,000 in

The Honorable Victoria S. Marks presided.

8

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER

special damages against Bornemann "to compensate for the interest
that had accrued on the Kekonas' initial $191,000 judgment."
Kekona IV, 135 Hawai'i at 26'2, 349 P.3d at 369. The jury also
awarded the Kekonas $1,642,857.13 in punitive damages against
Bornemann. Id. A "Final Judgment" related to the third jury
trial.was entered on February 5, 2008 (2008 Judgment).
Bornemann appealed the 2008 Judgment to the ICA,
asserting among other things that: the special damages award
against him of $253,000 constituted double recovery; and the
punitive damages award againl!Jt him of $1,642,857.1.3 was excessive
and unconstitutional. Kekona III, 130 Hawai'~ at 63-64, 305 P.3d
at 479-80. With regard to the special damages award of $253,000,
the ICA expressed concern as to whether that award, in
combination with cancellation of the transfer of the Kane'ohe
property, provided a recovery to the Kekonas that exceeded the
amount of their damages. Id. at 67-69, 305 P.3d at 483-85. In
this regard, the ICA vacated the 2008 Judgment and held that
further proceedings were necessary to fashion an appropriate
remedy against Bornemann. Id. at 69, 74, 305 P.3d at 485, 490.
With regard to the $1,642,857.13 punitive damages award against
Bornemann, the ICA held that the award violated Bornemann's due
process rights and found instead that punitive damages in the
amount $250,000 was sufficient to punish Bornemann. Id. at 74,
305 P.3d at 490.
The Kekonas applied for a writ of certiorari requesting
supreme court review only as to the punitive damages award, which
the supreme court granted. Kekona IV, 135 Hawai'i at 262, 349
P.3d at 369. In Kekona IV, issued on April 24, 2015, the supreme
court vacated the ICA judgment with regard to the $1,642,857.13
punitive damages award against Bornemann, and instead held that
"the evidence presented to the third jury adequately
substantiated the $1,642,857.13 punitive damages award that the
jury rendered." Id. at 264, 349 P.3d at 371. In its Amended
Judgment on Appeal filed on July 6, 2015, the supreme court thus
9

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

vacated the ICA's 2013 judgment on appeal in part, affirmed the
circuit court's 2008 Judgment with respect to the $1,642,857.13
punitive damages award against Bornemann, and remanded the case
to the circuit court for proceedings consistent with its
opinion. 10
3.

2015 Remand to Circuit Court

The current appeals arise from proceedings in the
circuit court 11 after the supreme court remanded the case in 2015
pursuant to Kekona IV.
In the circuit court, on June 23, 2015, Bornemann filed
a Motion to Vacate Judgment arguing that the 2008 Judgment lacked
a valid enforceable debt because the 1994 Hanauma Bay Judgment
had expired. On June 24, 2015, Abastillas and Smith filed a
similar Motion to Vacate the 2001 Judgment, asserting both the
1994 Hanauma Bay Judgment and the 2001 Judgment in this case had
expired.
The Kekonas responded to the motions to vacate by
arguing the circuit court lacked the authority to overrule the
judgments affirmed by either the 2006 ICA decision or the supreme
court's decision in 2015. The Kekonas also argued that an
amended revised final judgment subsequent to the ICA's 2006
decision in Kekona I had never been filed and therefore, there
was no valid original judgment pursuant to Roxas. On September
29, 2015, a hearing was held regarding the motions to vacate.
On October 7, 2015, the Kekonas filed a "Motion to
Enter Consolidated Amended Amended Final Revised Judgment
Following Remand" (Motion to Enter Consolidated Judgment) . The

10

On May 4, 2015, Bornemann filed a motion for reconsideration
regarding the opinion in Kekona IV, which the supreme court denied. After the
supreme court entered its initial judgment on appeal on June 18, 2015, the
Kekonas filed a motion for reconsideration, requesting that the supreme court
judgment specifically affirm the circuit court's $1,642,857.13 punitive
damages award against Bornemann, which the supreme court granted. Thus, an
Amended Judgment on Appeal was filed on July 6, 2015.
11

The Honorable Rhonda A. Nishimura presided.

10

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER

Kekonas sought a consolidated judgment reflecting the 2006 ICA
opinion in Kekona I (particularly the itemized awards set forth
in footnote 5) and the 201~ supreme court opinion in Kekona IV,
and entry of final judgment against a.ll parties for all claims.
On October 8, 2015, the circuit court entered two
orders denying the motions to vacate that had been filed by
Abastillas and Smith, and Bornemann, respectively.
On October 30, 2015, the Kekonas filed a "Motion to
Amend Three Orders/Stipulations, For Order to Pay Over, and for
Other and Further Relief" (Motion to Amend) . The Kekonas sought
an order that Bornemann pay over monies in four bank accounts and
transfer both the Nu'uanu and Kane'ohe properties to the Kekonas.
The Kekonas also sought the remaining equity in the Kane'ohe
property to be credited such as to satisfy part of the judgment
against Abastillas and Smith.
On December 2, 2015, a hearing was held on the Motion
to Enter Consolidated Judgment and the Motion to Amend. The
Kekonas argued that as part of a supersedeas bond in 2008,
Bornemann had deeded the Kane'ohe property to Smith and
Abastillas. Bornemann argued that he was not liable for any
judgments against Smith and Abastillas other than the original
claim plus statutory interest. Bornemann also argued-that the
purpose of the supersedeas bond was to pursue his appeal and to
stay execution on the judgments entered against him.
On January 11, 2016, ·a second hearing was held on the
Motion to Amend with regards to 'the Kane'ohe property. Bornemann
argued that he had never waived his equity in the Kane'ohe
property and is entitled to a credit. The Kekonas argued that
Bornemann never claimed an interest in the Kane'ohe property and
failed to. file a timely motion for clarification of the
supersedeas bond or the orders cancelling the quitclaim deeds.
At the hearing, the circuit court noted that the order
granting in part Bornemann's motion for stay of execution in 2008

11

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

had ordered Bornemann to deliver to escrow a deed transferring
his interest in the Kane'ohe property to SMI and Smith and did
not mention a credit to Bornemann. The circuit court also noted
that the 2013 ICA decision, Kekona III, had not addressed the
cancellation of the quitclaim deeds related to the Kane'ohe
property which had been declared null and void by the circuit
court in the 2008 Judgment. Furthermore, the order cancelling
the quitclaim deeds stated that Bornemann had no right, title,
interest, or other benefit as to the ~ane'ohe property.
On February 1, 2016, the circuit court entered orders
that: granted the Motion to Enter Consolidated Judgment; and
granted in part the Motion to Amend. The same day, the circuit
court also entered a "Consolidated Amended Amended Revised Final
Judgment" (2/1/16 Judgment)
On February 11, 2016, Bornemann filed a Motion for
Reconsideration arguing that the circuit court failed to follow
the plain text of HRS § 651C-8 and that he is entitled to a
credit for the equity in·the Kane'ohe property. Bornemann's
Motion for Reconsideration was orally denied on April 7, 2016.
Smith and Abastillas filed a notice of appeal and
Bornemann filed a separate notice of appeal from the 2/1/16
Judgment. On June 27, 2016, the ICA entered two orders
dismissing the appeals for lack of appellate jurisdiction because
the 2/1/16 Judgment failed to identify the claims on which the
circuit court intended to enter judgment.
On September 19, 2016, the circuit court entered the
9/19/16 Judgment. Therein, the circuit court specified the
claims on which judgment was entered against the respective
defendants and the amounts awarded for each claim.
• As to Smith, judgment was entered in the total
amount of $1,656,000 (the award of $662,400 plus $993,600 in

12

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

interest since the 2001 Judgment), plus statutory interest from
February 26, 2016.u
• As to Abastillas, judgment was entered in the total
amount of $2,435,004 (the award of $974,004 plus interest of
$1,461,000 since the 2001 Judgment), plus statutory interest from
February 26, 2016.
As to Bornemann, judgment was entered in the total
amount of $2,957,142.73 (punitive damages of $1,642,857.13 plus
$1,314,285.60 in interest since the 2008 Judgment), plus
statutory interest from February 5, 2016.
Similar to the 2008 Judgment, the 9/19/16 Judgment
declared four specified deeds regarding the Kane'ohe property
cancelled and void.
Bornemann appealed resulting in CAAP-16-0000679.
Abastillas and Smith appealed resulting in CAAP-16-0000782.
II. Standard of Review
A.

Statutory Interpretation

"Statutory interpretation is a question of law
reviewable de novo." State v. Wheeler, 121 Hawai'i 383, 390, 219
P.3d 1170, 1177 (2009) (internal quotation marks omitted). Our
construction of statutes is guided by the following rules:
First, the fundamental starting point for statutory
interpretation is the language of the statute itself.
Second, where the statutory language is plain and ·
unambiguous, our sole duty is to give effect to its plain
and obvious meaning. Third, implicit in the task of
statutory construction is our foremost obligation to
ascertain and give effect to the intention of the
legislature, which is to be obtained primarily from the
language contained in the statute itself. Fourth, when
there is doubt, doubleness of meaning, or indistinctiveness
or uncertainty of an expression used in a statute, an
ambiguity exists.

12

The amounts in the 9/19/16 Judgment against Smith and Abastillas
track the amounts awarded in the 2001 Judgment, except for $200,000 in general
damages that were vacated by the ICA in Kekona I. Also, because Smith's law
firm and SMI had dissolved, the 9/19/16 Judgment included the awards against
those entities as against Smith as Trustee for his law firm and against
Abastillas as Trustee for SMI.

13

NOT FOR PUBLICATION IN WEST'S RAWAI'I REPORTS AND PACIFIC REPORTER

Id. (quoting Citizens Against Reckless Dev. v. Zoning Bd. of
Appeals of the City & Cty. of Honolulu, 114 Hawai'i 184, 193-94,
159 P.3d 143, 152-53 (2007)).
B.

Motion to Vacate Judgments

The circuit court's rulings on the motions to vacate
prior judgments were based on determining the legal effect of
certain prior judgments and whether they had expired pursuant to
HRS § 657-5. These were questions of law, which we review de
novo. See generally Estate of Roxas, 121 Hawai'i at 66, 214 P.3d
at 605; Bank of Hawaii v. DeYoung, 92 Hawai'i 347, 351, 992 P.2d
42, 46 (2000) .
III. Discussion
A.

Bornemann's Appeal in CAAP-16-0000679
1.

Expiration of the 1994 Hanauma Bay Judgment

Bornemann contends that the circuit court erred in
denying his motion to vacate, which sought to vacate the 2008
Judgment against him, because the 1994 Hanauma Bay Judgment which
he asserts set forth the underlying debt owed to the Kekonas
expired on September 2, 2014, pursuant to HRS § 657-5. Bornemann
notes that the 1994 Hanauma Bay Judgment was extended by the
Kekonas under HRS § 657-5 for ten years, and thus expired on
September 2, 2014. Hence, Bornemann contends that by the time
the circuit court was again addressing this case after remand
from the supreme court in 2015, there was no underlying debt
owned to the Kekonas and a necessary component of the fraudulent
transfer claim had expired.
Bornemann argues the 2008 Judgment should have been
vacated pursuant to HRCP Rule 60(b) (5), which provides for relief
when a judgment "has been satisfied, released, or discharged[.]"
He then points to HRS § 657-5, the pertinent version of which
provides:
§657-5 Domestic judgments and decrees. Unless an
extension is granted, every judgment and decree of any court
of the State shall be presumed to be paid and discharged at
the expiration of ten years after the judgment or decree was

14

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER
rendered. No action shall be commenced after the expiration
of ten years from the date a judgment or decree was rendered
or extended. No extension of a judgment or decree shall be
granted unless the extension is sought within ten years of
the date the original judgement or decree was rendered. ~
court shall not extend any judgment or decree beyond twenty
years from the date of the original judgment or decree. No
extension shall be granted without notice and a hearing.

(Emphasis added) .
Borneman further argues that under Int'l Sav. and Loan
Ass'n, Ltd. v. Wiig, 82 Hawai'i 197, 921 P.2d 117 (1996),
involving a garnishment proceedings, if an underlying judgment
expires under HRS § 657-5, the judgment is presumed paid and
discharged, and all rights and remedies appurtenant to that
judgment terminate. Bornemann asserts that a fraudulent transfer
claim, like garnishment, is only a mechanism to collect an
existing debt and requires a presently enforceable underlying
claim. See Carr v. Guerard, 616 S.E.2d 429 {S.C. 2005); Jahner
v. Jacob, 515 N.W.2d 183 (N.D. 1994); Oregon Recovery, LLC v.
Lake Forest Equities, Inc., 211 P.3d 937 (Or. Ct. App. 2009);
RRR, Inc. v. Toggas, 98 F.Supp.3d 12 (D. D.C. 2015).
First, we note that the Kekonas initiated this action
after the 1993 jury award in the Hanauma Bay lawsuit and before
any judgment had been entered in that prior lawsuit. The
Kekonas' Verified Complaint.relies on the assertion that they had
been awarded damages by the jury in the Hanauma Bay lawsuit and
that soon thereafter, defendants sought to conceal assets by
transferring property to prevent the Kekonas from recovering on
the jury award. Hence, contrary to Bornemann's assertion, the
Kekonas do not onl¥ rely on the 1994 Hanauma Bay Judgment as the
underlying basis for their fraudulent transfer claim in this
case.
Second, even assuming this action by the Kekonas is
construed as based on the 1994 Hanauma Bay Judgment, we conclude
that Wiig is distinguishable. Unlike in this case, there· was no
separate and independent judgment in Wiig distinct from the
15

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

underlying judgment that supported the garnishment order. There,
the plaintiff bank had obtained a judgment for a specified amount
a~ainst Wiig, and then filed a motion for issuance of a garnishee
summons to enforce the judgment. 82 Hawai'i at 198, 921 P.2d at
118. The circuit court entered a garnishee order directing
Wiig's employer to withhold part of his salary and pay it to
plaintiff bank until the underlying judgment was fully paid. Id.
During the course of repayment, Wiig asserted that the underlying
judgment had expired and thus the garnishee order should be set
aside. Id. The circuit court denied Wiig's motion, but on
appeal, the Hawai'i Supreme Court reversed. I d. at .198-99, 202,
921 P.2d at 118-19, 122. The supreme court held that, under HRS
§ 657-5, the underlying judgment was presumed paid and
discharged, that the existence of a valid judgment is a
jurisdictional prerequisite to garnishment relief, and that the
garnishment order could not survive independently of the judgment
as the primary purpose of a garnishment is to enforce the payment
of a judgment. Id. at 201-02, 921 P.2d at 121-22.
To the contrary, as noted in the extensive history of
this case which began in 1993, there were two judgments entered
against Bornemann in this case before the 1994 Hanauma Bay .
Judgment allegedly expired in 2014 -- the 2001 Judgment and the
2008 Judgment. Thus, long before the alleged expiration of the
1994 Hanauma Bay Judgment, independent and separate judgments
were entered in this case against Bornemann.
Third, and for similar reasons, we conclude that the
case law from other jurisdictions related to fraudulent transfer
claims is distinguishable. In those cases, although fraudulent
transfer lawsuits were dismissed once an underlying judgment had
expired, it does not appear that independent judgments in the
fraudulent transfer cases had been obtained by the time those
cases were dismissed. See Carr, 616 S. E. 2d at. 430 · (plaintiff
filed his fraudulent transfer action after the underlying
judgment had already expired); Oregon Recovery, LLC, 211 P.3d at
16

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

939. In short, the underlying judgments in Carr and Oregon
Recovery, LLC expired before any judgment for the fraudulent
transfer lawsuit could be rendered.
Here, by contrast, the Kekonas filed this lawsuit
against Bornemann in 1993, soon ~fter the jury award in the
Hanauma Bay lawsuit and before the 1994 Hanauma Bay Judgment had
even been issued. Further, the 2901 Judgment and 2008 Judgment
against Bornemann were both rendered in this case before the 1994
Hanauma Bay Judgment purportedly expired.
Finally, we note that Bornemann contends the 1994
Hanauma Bay Judgment expired on September 2, 2014. At that time,
this case was pending in the Hawai'i Supreme Court. The supreme
court issued Kekona IV on April 24, 2015, after Bornemann
contends the underlying judgment expired. At no time did
Bornemann (or any other party) assert in the supreme court that
any judgment in this case against him should be vacated due to
the expiration of the 1994 Hanauma Bay Judgment. Even after
Kekona IV was issued, Bornemann filed a motion seeking
reconsideration by the supreme court of its opinion. Bornemann's
motion for reconsideration did not mention anything about the
1994 Hanauma Bay Judgment expiring such that any award or
judgment against him was precluded in this case. The supreme
court's mandate, subsequently issued in its July 6, 2015 Amended
Judgment on Appeal, affirms the $1,642,857.13 punitive damages
award against Bornemann. On remand, the circuit court was
obligated "to comply strictly with the mandate of the appellate
court according to its true intent and meaning[.]" Chun v. Bd.
of Trs. of Emps.' Ret. Sys. of State of Hawai'i, 106 Hawai'i 416,
439, 106 P.3d 339, 362 (2005).
Given the circumstances in this case, the circuit court
did not err in denying Bornemann's motion to vacate the 2008
Judgment.

17

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

2.

Credit to Bornemann for Equity in Kane'ohe
Property

Bornemann contends the circuit court erred in entering
the 9/19/16 Consolidated Judgment because it canceled the deeds
to the Kane'ohe property without considering the value of that
property or the value of the 1994 Hanauma Bay Judgment, and
without affording Bornemann any credit for equity in the Kane'ohe
property wh~ch he estimates was $31.5, 400. 13 Bornemann thus
asserts the 9/19/16 Judgment should be modified to give him a
credit for the $315,400 purported equity in the Kane'ohe
property. 14
After remand in 2015, in seeking to fashion a remedy
for the Kekonas against Bornemann for the fraudulent transfer of
the Kane'ohe property, it appears the circuit court did not
factor in the value of the Kane'ohe property and whether voiding
the deeds which transferred the property to Bornemann allowed the
Kekonas to exceed the recovery due to them under HRS §§ 651C-7
and 651C-8. This is inconsistent with Kekona III, 130 Hawai'i at
66-69, 305 P.3d at 482-85.
The 2008 Judgment included an award for the Kekonas
against Bornemann in the amount of $253,075.29 for delay damages,
punitive damages in the amount of $1,642,857.13, and a
declaration canceling and voiding deeds related to the Kane'ohe
property. On appeal to the ICA, in Kekona III, the ICA vacated
the 2008 Judgment, including the award of $253,075.29 against

13
Bornemann arrives at this figure by arguing that in 2015, the
Kane'ohe property was tax assessed to have a value of $912,400. Bornemann
then calculates the 1994 Hanaurna Bay Judgment, which was $191,628.27, with ten
percent statutory interest added as of February 1, 2016 as amounting to
$597,000. He then subtracts $597,000 from $912,400, resulting in his claim of
a $315,400 equity credit.

14

The Kekonas argue that Bornemann waived this argument by failing to
raise it in the circuit court. We disagree. During the most recent remand to
circuit court, Bornemann opposed the Kekonas' Motion to Enter Consolidated
Judgment and the Motion to Amend, and argued the circuit court should give him
credit for the equity in the Kane'ohe property.

18

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER

Bornemann for delay damages and the voiding of the deeds. The
Kekonas only sought a writ of certiorari from the supreme court
with respect to the punitive damages award, and thus the rest of
the ICA opinion and judgment in Kekona III remained in effect.
In Kekona III, this court addressed Bornemann's various
arguments that damages awarded against him and voiding the
transfer of the Kane'ohe property, set forth in the 2008
Judgment, had improperly allowed the Kekonas to obtain an
excessive recovery. Id. We analyzed the statutory remedies
under HRS Chapter 651C and agreed with Bornemann. Of note, after
discussing the types of remedies allowed under HRS § 651C-7,
which are subject to.the limitations in HRS § 651C-8, this court
stated "this statutory scheme provides the Kekonas with any
number of ways to recover what is due to them, but it does not
allow them to be compensated more than once." Id. at 68, 305
P.3d at 484. We thus held that:
although the Kekonas are entitled to relief against
Bornemann for the amount of the original underlying judgment
against Smith and Abastillas plus the statutory interest
awarded by the jury as damages, further proceedings are
necessary to fashion an appropriate form or forms of remedy,
executed in a manner that their recovery does not exceed the
sums due to them.

Id. at 69, 305 P.3d at 485 (emphasis added).
HRS § 651C-7 (2016) details the statutory remedies of
creditors for fraudulent transfers and provides:
[§651C-7] Remedies of creditors.
(a) In any action
for relief against a transfer or obligatiQn under this
chapter, a creditor, subject to the limitations provided in
section 651C-8, may obtain:

(1)

Avoidance of the transfer or obligation to the
extent necessary to satisfy the creditor's
claim;

(2)

An attachment or other provisional remedy
against the asset transferred or other property
of the transferee in accordance with the
procedure prescribed by chapter 651;

(3)

Subject to applicable principles of equity and
in accordance with applicable civil rules of
procedure:

19

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC. REPORTER

(A)

An injunction against further disposition
by the debtor or a transferee, or both, of
the asset transferred or of other
property;

(B)

Appointment of a receiver to take charge
of the asset transferred or of other
property of the transferee; or

(C)

Any other relief the circumstances may require.

(b) If a creditor has obtained a judgment on a claim
against the debtor, the creditor may, if the court so
orders, levy execution on the asset transferred or its
proceeds.

The relevant limitations of HRS

(Emphasis added)
as follows:

§

651C-8 are

[§651C-8] Defenses, liability, and protection of
transferee.
(a) A transfer or obligation is not voidable

under section 651C-4(a) (1) against a person who took in good
faith and for a reasonably equivalent value or against any
subsequent transferee or obligee.
(b) Except as otherwise provided in this section, to
the extent a transfer is voidable in an action by a creditor
under section 651C-7(a) (1), the creditor may recover
judgment for the value of the asset transferred, as adjusted
under subsection (c), or the amount necessary to satisfy the
creditor's claim, whichever is less. The judgment may be
entered against:
(1)

The first transferee of the asset or the person
for whose benefit the transfer was made; or

(2)

Any subsequent transferee other than a
good-faith transferee who took for value or from
any subsequent transferee.

(c)
the value
an amount
transfer,

If the judgment under subsection (b) is based upon
of the asset transferred, the judgment must be for
equal to the value of the asset at the time of the
subject to adjustment as the equities may require.

Given these provisions, we agree with Bornemann to the
limited extent that the circuit court should have determined the
amount necessary to satisfy the claim, i.e. the $191,628.27 in
damages stemming from the Hanauma Bay lawsuit, plus statutory
interest; and once that amount was determined, the circuit court
should have, with regard to Bornemann, 15 "fashion[ed] an
15
We note that Kekona III only .addressed Bornemann's appeal from the
2008 Judgment.

20

NOT FOR PUBLICATION IN WEST'S RAWAI'I REPORTS AND PACIFIC REPORTER

appropriate form or forms of remedy, executed in a manner that
[the Kekonas'] recovery does not exceed the sums due to them."
130 Hawai'i at 69, 305 P.3d at 485. It does not appear the
circuit court considered how voiding the transfer of the Kane'ohe
property to Bornemann affected the amount recovered by the
Kekonas, and whether voiding the transfer of the Kane'ohe
property to Bornemann allowed the Kekonas to recover an amount
exceeding the sums due to them for damag~s and interest stemming
from the Hanauma Bay lawsuit. Thus, we conclude a further remand
is necessary on this issue.
On remand, the circuit court should: determine the
current .circumstances of the case (i.e., if the Kekonas have
already recovered any of the damages or interest stemming from
the Hanauma Bay lawsuit); determine whether or to what extent
voiding the transfer of the Kane'ohe property to Bornemann is
needed for the Kekonas to recover the sums due to them for
damages and interest stemming from the Hanauma Bay lawsuit; and
fashion a remedy against Bornemann16 to ensure the Kekonas'
recovery in this regard does not exceed the sums due to them. If
the transfer of the Kane'ohe property to Bornemann is voided, the
circuit court should assess how that impacts the amounts
recovered by the Kekonas and provide a remedy against Bornemann
such that the Kekonas receive only the amount due to them for the
damages and interest stemming from the Hanauma Bay lawsuit.
3.

Punitive Damages and Post-Judgment Interest

Bornemann continues to challenge the punitive damages
that have been awarded against him in the amount of
$1,642,857.13. Regardless of Bornemann's various arguments in
this regard, we need not revisit this issue. In short, the
punitive damages award against Bornemann was finally decided by
the supreme court in Kekona IV. 135 Hawai'i at 264-67, 349 P.3d
at 371-74.
16
Abastillas and Smith do not challenge the amounts entered against
them in the 9/19/16 Consolidated Judgment.

21

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

As to Bornemann's arguments regarding post-judgment
interest, "[t]he purpose of [post-judgment] interest is to
compensate the successful plaintiff for being deprived of
compensation for the loss of time between the ascertainment of
the damage and the payment by the defendant." U.S. v. Bell, 602
F.3d 1074, 1083 (9th Cir. 2010) (internal quotation marks and
citation omitted). "Onder the common law there is no
[post-judgment] interest, so the propriety of an award of
[post-judgment] interest rests solely upon the statutory
provision." Id. (internal quotation marks and citation omitted).
Under Hawai'i law, post-judgment interest is governed
by HRS § 478-3 (2008) which states: "[i]nterest at the rate of
ten per cent a year, and no more, shall be allowed on any
judgment recovered before any court in the State, in any civil
suit."
It is apparent from various points in the record that
Bornemann was aware that post-judgment interest was continuing to
accrue through the various trials and appeals. Prior to the
third jury trial, Bornemann, Abastillas, Smith, and the Kekonas
agreed to Jury Instruction No. 27 which provided: "[i]nterest at
the rate of ten percent a year, and no more, shall be allowed on
any court judgment. H.R.S. Section 478-3."
In its Amended Judgment on Appeal following Kekona IV,
the supreme court expressly affirmed the punitive damages award
of $1,642,857.13 against Bornemann, which had been included in
the 2008 Judgment. Given all of the circumstances in this case,
we find no error in the circuit court thereafter awarding
statutory interest on the punitive damages award, amounting to
$1,314,285.60 in interest since the 2008 Judgment.
B.

Abastillas and Smith's Appeal in CAAP-16-0000782
1.

Retroactivity of Roxas

Abastillas and Smith argue that the supreme court's
decision in Estate of Roxas v. Marcos, 121 Hawai'i 59, 214 P.3d
598 (2009), should not be applied retroactively to determine .when
22

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER

certain judgments, in the Hanauma Bay lawsuit and this case,
expired pursuant to HRS § 657-5. Abastillas and Smith argue
that: the 1994 Hanauma Bay Judgment expired on September 1, 2014,
after being extended an additional ten years under HRS § 657-5;
the 1999 Judgment in the Hanauma Bay lawsuit expired on August
17, 2009; and the 2001 Judgment in this case expired on February
26, 2011, even though it was appealed and this court in Kekona I
affirmed it in part and vacated it in part.
Abastillas and Smith contend that because this court's
decision in Estate of Roxas v. Marcos, 120 Hawai'i 123, 202 P.3d
584 (App. 2009) was later vacated by the supreme court, the
supreme court's Roxas opinion therefore "established a new
principle of law[.]" We disagree.
The supreme court's holding in Roxas did not change
established law, but instead provided an opportunity for the
Hawai'i appellate courts to interpret the term "original
judgment" as set forth in HRS § 657-5. Roxas, 121 Hawai'i at 6671, 214 P.3d at 606-10. The Roxas decision does not reflect that
it should be applied only prospectively. See, contra State v.
Auld, 136 Hawai'i 244, 361 P.3d 471 (2015) (recognizing that the
court was announcing new rules in that case that should be
applied prospectively). Indeed, the decision in Roxas was
applicable to judgments in that case issued long before the
supreme court's opinion, including a judgment issued in 1999.
121 Hawai'i at 74, 214 P.3d at 613. Thus, we disagree ~ith
Abastillas and Smith that the Roxas decision must be applied only
prospectively.
As held in Roxas, the term "original judgment" in HRS §
657-5 "pertains to the judgment that creates the rights and
responsibilities that the moving party is seeking to enforce and
extend." Id. at 71, 214 p;3d at 610. Moreover, the supreme
court addressed the effect of an amended judgment for purposes of
HRS § 657-5, and held that:

23

NOT FOR PUBLICATION IN WEST'S HAWAI'I REPORTS AND PACIFIC REPORTER
where multiple judgments created the same rights that the
party is seeking to extend, the "original judgment" is (1)
the unamended judgment where the amended judgment makes
non-material amendments to a prior judgment, but (2) the
amended judgment where it amended the prior judgment "in a
material and substantial respect."

Id. at 72-73, 214 P.3d at 611-12.
In this case, as noted earlier, there were independent
and separate judgments entered in this case before the judgements
in the Hanauma Bay lawsuit allegedly expired. Thus, as we
concluded earlier, the alleged expiration of the judgments in the
Hanauma Bay lawsuit are not dispositive. Further, as to the
argument by Abastillas and Smith that the 2001 Judgment in this
case expired, we note that the 2001 Judgment was amended in a
material and substantial manner by the 2008 Judgment. Moreover,
the 2008 Judgment was thereafter amended in a material and
substantial manner by the 9/19/16 Consolidated Judgment in this
case. In sum, we reject Abastillas and Smith's arguments that
judgments against them have expired such that all damages awarded
against them in this case are extinguished.
2.

Abastillas and Smith's Other Arguments

Abasillas and Smith further argue that they did not
unduly delay in filing their HRCP Rule 60(b) (5) motion to vacate
certain judgments against them, and alternatively, that the
circuit court erred in not allowing them to substitute HRCP Rule
7(b) (1) for Rule 60(b) (5) to assert that the judgments against
them had expired.
Based on the record and our rulings above, it is of no
consequence whether Abastillas and Smith were allowed to rely on
Rule 60 (b) (5) or HRCP Rule 7 (b) (1), or if the circuit court
considered the merits of their claim that the judgments against
them had lapsed. As discussed above, notwithstanding that
judgments in the Hanauma Bay lawsuit allegedly have expired,
there were separate judgments entered in this case. Moreover,
the judgments entered thus far in this case have been materially

24

NOT FOR PUBLICATION IN WEST'S HAWAI' I REPORTS AND PACIFIC REPORTER

and substantively amended throughout the course of this lengthy
litigation.
IV.

Conclusion

Based on the foregoing, the "Consolidated Third Amended
Revised Final Judgment" entered on September 19, 2016, in the
Circuit Court of the First Circuit, ~s vacated only as to its
declaration canceling and voiding deeds related to the Kane'ohe
property and declaring that Bornemann shall have no right, title,
interest or other benefit under those deeds. The case is
remanded to the circuit court for further proceedings consistent
with this Memorandum Opinion.
In all other respects, the "Consolidated Third Amended
Revised Final Judgment" is affirmed.
DATED: Honolulu, Hawai'i, November 30, 2018.
On the briefs:

~UA~

Terence J. O'Toole~
(Lane Hornfeck and
Michael F. O'Connor
with him on the briefs),
for Michael Bornemann, M.D.

Chief Judge

Fred Paul Bence,
for Benjamin Paul Kekona
and Tamae M. Kekona.

~-f\R/\\tL0\0.J.j.L
Associate Judge

Paz Feng Abastillas,
pro se.
Robert A. Smith,
pro se.

25

